   August 20, 2002




Environmental
Programs
Naval Facilities Engineering
Command Environmental Services
Contracting
(D-2002-139)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
  fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CLEAN                 Comprehensive Long-Term Environmental Action Navy
FAR                   Federal Acquisition Regulation
IG DoD                Inspector General of the Department of Defense
NAVFAC                Naval Facilities Engineering Command
RAC                   Remedial Action Contract
U.S.C.                United States Code
         Office of the Inspector General of the Department of Defense
Report No. D-2002-139                                                  August 20, 2002
  (Project No. D2001CB-0181.000)

                    Naval Facilities Engineering Command
                     Environmental Services Contracting

                                   Executive Summary

Who Should Read This Report and Why. DoD procurement, contracting, and
environmental program professionals and policy makers should read this report. The
report discusses the procurement, performance, and oversight of selected environmental
services contracts at the Naval Facilities Engineering Command (NAVFAC).

Background. This audit was conducted in response to a complaint to the General
Accounting Office concerning NAVFAC services contracts. The General Accounting
Office referred the complaint to the Defense Hotline. The complaint alleged favoritism
in the award of environmental services contracts, questioned the appropriateness of a
NAVFAC facilities management contract, and alleged that the NAVFAC Atlantic
Division illegally and improperly extended a 5-year environmental services contract for
an additional 5 years.

Results. Favoritism in the award of environmental services contracts did not occur and
the facilities management contract award was proper. However, there were problems
with the extended time frames for contracts. The NAVFAC Atlantic Division did not
comply with competition requirements in regulations when it improperly extended
environmental services contracts N62470-93-D-3033 and N62470-97-D-5000, with a
total estimated value of $325 million, for 5 years and 2 years, respectively. In
addition, NAVFAC headquarters improperly exceeded regulatory 5-year contract limits
by including a 7-year limit for four multi-award environmental services contracts with a
total value of $758 million. Neither the extensions nor the 7-year limit was supported
by adequate written justification or cost/price analysis. NAVFAC contracting officials
made inaccurate interpretations of Federal Acquisition Regulation competition
requirements. In addition, NAVFAC headquarters had not developed a strategy to
award environmental services procurements and did not coordinate the 1998 multiple
award procurement with all its Component divisions. As a result, the Navy did not
obtain the benefits from competing the requirements for the environmental services.

Navy Comments and Audit Response. The Office of the Assistant Secretary of the
Navy (Research, Development, and Acquisition) agreed to revise the NAVFAC
Acquisition Supplement regarding authorizing and documenting exceptions to a 5-year
limit for service contracts and to conduct a procurement management review of
NAVFAC compliance with 5-year service contract requirements and competition on
individual task orders. The Navy believes that the NAVFAC Acquisition Supplement
should be revised and that NAVFAC should verify compliance. The Navy agreed that
NAVFAC should develop a structured approach to contracting for environmental
remediation services at all NAVFAC Components and establish controls to ensure
compliance with service contract requirements. NAVFAC will develop a multi-award
contracting plan for future procurements that includes the ability of multi-award
contractors to compete for available task orders in accordance with Section 803 of the
National Defense Authorization Act for Fiscal Year 2002 and require re-competition of
the multi-award contracts every 5 years unless written documentation and approval is
obtained for a longer period of performance. Also, NAVFAC will review four multi-
award environmental remedial contracts to determine if adequate justification exists for
a longer period of performance beyond 5 years, and if so, prepare formal written
determination and approval.

Although revision of the NAVFAC Acquisition Supplement is a prudent action, we
continue to believe that Navy Acquisition Procedures Supplement 5217.204 should be
revised because the current Navy-wide guidance is subject to inconsistent application of
the 5-year limitation by Navy contracting organizations. Also, we believe that a
NAVFAC-performed assessment would lack the independence of an outside
organization to verify future NAVFAC compliance. We therefore request additional
Navy comments to the final report by September 20, 2002, regarding the Navy
Acquisition Procedures Supplement and assessment recommendations.

Management Actions. In response to this audit, NAVFAC notified the two affected
contractors on January 14 and 15, 2002, respectively, that it would not exercise further
options for environmental remedial contracts N62470-93-D-3033 and
N62470-97-D-5000 and would re-compete the contract requirements.




                                           ii
Table of Contents

Executive Summary                                                   i

Background                                                          1

Objectives                                                          3


Finding
     Naval Facilities Engineering Command Environmental Remedial
          Action Contracts                                          4

Appendixes
     A. Scope and Methodology
          Scope                                                    12
          Methodology                                              12
          Management Control Program Review                        13
          Prior Coverage                                           14
     B. Summary of Allegations and Audit Results                   15
     C. Naval Facilities Engineering Command Environmental
        Services Contracts                                         17
     D. Navy Comments on the Finding and Audit Response            19
     E. Report Distribution                                        22

Management Comments
     Department of the Navy                                        25
Background
    This audit was conducted in response to a complaint to the General Accounting
    Office concerning Naval Facilities Engineering Command (NAVFAC) services
    contracts. The General Accounting Office referred the complaint to the Defense
    Hotline. The complaint alleged favoritism in the award of environmental
    services contracts and that the NAVFAC Atlantic Division illegally and
    improperly extended a 5-year environmental services contract for an additional
    5 years. The complaint also questioned the appropriateness of a NAVFAC
    Southwest Division award of a $250 million facilities management contract. See
    Appendix B for a summary of the Defense Hotline allegations and the audit
    response.
    Environmental Services Contracting. NAVFAC environmental services
    contracts include Comprehensive Long-Term Environmental Action Navy
    (CLEAN) contracts and environmental Remedial Action Contracts (RACs).

            Comprehensive Long-Term Environmental Action Navy Contracts.
    CLEAN contracts perform long-term environmental research to support
    NAVFAC compliance with the DoD installation restoration program and the
    Comprehensive Environmental Response Compensation and Liability Act of
    1980. CLEAN services include investigations, studies, designs, assessments,
    and testing, and result in data and specifications used to outline performance
    requirements for subsequent environmental remediation. CLEAN contracts are
    awarded on a cost-plus-award-fee basis and are usually 10 years in duration.
    CLEAN contracts are designated as architect-engineer services and are not
    subject to 5-year limits for service contracts.

            Remedial Action Contracts. NAVFAC RACs provide for remedial
    action services at environmentally contaminated sites. NAVFAC RACs are
    usually awarded on a cost-plus-award-fee basis with a 1-year base period and up
    to 4 option years. RACs are typically used to clean up contaminants in soils,
    sediments, groundwater, air, sludge, and surface water, or manmade structures
    such as underground storage tanks. Contaminants include petroleum, oils, and
    lubricants including gasoline, fuel oils, aviation fuel, waste oil, and diesel fuels.
    Other contaminants subject to cleanup may include solvents, metals, acids,
    bases, reactives, polychlorinated biphenyls, pesticides, and low-level
    radiological materials. NAVFAC prohibits incumbent or former CLEAN prime
    contractors from competing for RAC prime contract awards within the same
    engineering field division or activity.




                                          1
           NAVFAC Environmental Contract Funding. In FY 2001, NAVFAC
           budgeted $480.96 million for RAC and CLEAN contract obligations.
           NAVFAC has 20 active RACs and 15 active CLEAN contracts with a total not-
           to-exceed obligation value of $6.345 billion. The 20 active NAVFAC RACs
           have a not-to-exceed contract value totaling $3.6 billion. We reviewed the
           following six RACs with a not-to-exceed value of $1.08 billion.


                          Summary of Remedial Action Contracts Reviewed
                                                                                         NTE1
                          Contract       NAVFAC                                          Value
                      Solicitation No.    Division         Contractor     Award Date   (millions)

                  N62470-93-D-3033        Atlantic         J.A. Jones      July 1994 $    75.0
                  N62470-97-D-5000        Atlantic          IT/OHM          Jan 1998     250.0
                  N62467-98-D-0995        Southern        CH2M Hill        June 1998     129.0
                  N68711-98-D-5713       Southwest       Foster Wheeler    June 1998     250.0
                  N62474-98-D-2076       Southwest          IT Corp.       June 1998     250.0
                  N62742-98-D-1808         Pacific          IT Corp.       June 1998     129.0
                       Total                                                         $ 1,083.0
                  1
                  Not-To-Exceed



           The 6 RACs reviewed represented 31 percent of the total RAC not-to-exceed
           contract value of $3.6 billion.1 See Appendix C for data on NAVFAC FY 2001
           environmental contracting and details on the 20 ongoing RAC and 15 ongoing
           CLEAN contracts.

           Congressional Limitation on RAC Funding. Section 8130 of the FY 2000
           DoD Appropriations Act (Public Law 106-79) limited NAVFAC expenditures
           on RACs. The Act required that no more than 35 percent of funds provided in
           this Act may be obligated for RACs with a total value of $130 million or higher.
           As a result, NAVFAC reduced not-to-exceed obligation amounts for contracts
           N62467-98-D-0995 and N62742-98-D-1808 from $250 million each to
           $129 million each.

           Competition in Contracting Act. The Competition in Contracting Act of 1984
           requires Federal executive agencies to obtain full and open competition through
           the use of competitive procedures (section 2304, title 10, United States Code
           (10 U.S.C. 2304). The Federal Acquisition Regulation (FAR) Part 6
           implements the Competition in Contracting Act and requires contracting officers
           to comply with a set of competitive procedures. Seven exceptions to using full
           and open competition are identified in 10 U.S.C. 2304(c) and in FAR

1
    We also reviewed one NAVFAC non-environmental facilities management contract noted in the
    Defense Hotline allegation, with a not-to-exceed value of $250 million. See Appendix B for a
    description of that contract.

                                                     2
     Subpart 6.3, “Other Than Full and Open Competition.” The seven exceptions
     include: only one responsible source and no other supplies or services will
     satisfy agency requirements; unusual and compelling urgency; industrial
     mobilization, engineering, developmental or research capability, or expert
     services; international agreement; authorized or required by statute; national
     security; and public interest. Documentation justifying the use of any of these
     exceptions is required.

     Federal Acquisition Streamlining Act. The Federal Acquisition Streamlining
     Act of 1994 amended title 10, United States Code, to add statutory authority for
     agency heads to enter into multiple award delivery and task order contracts for
     the procurement of goods and services (10 U.S.C. 2304(a), et seq.). Multiple
     award contracts occur when two or more contracts are awarded from one
     solicitation. The Act establishes a general preference for using multiple awards
     and requires that implementing FAR guidelines establish a preference for
     awarding, to the maximum extent practicable, multiple task or delivery order
     contracts for the same or similar services or property.

     Service Contract Time Limitations. Several sections of the FAR and the
     Service Contract Act (41 U.S.C. 353(d)) set contract term limits for service
     contract procurements. FAR 17.204(e) provides that unless otherwise approved
     in accordance with agency procedures, the total of the basic and option periods
     shall not exceed 5 years for service contracts. Service Contract Act
     requirements at 41 U.S.C. 353(d), and FAR 16.505(c) and 22.1002-1, also limit
     service contract length to 5 years.

Objectives
     The overall objective was to evaluate the procurement, performance, and
     oversight of environmental services contracts. We also determined whether the
     contracts complied with applicable laws and regulations on the use of contracted
     support services. We also reviewed the management control program as it
     applied to the audit objectives. See Appendix A for a discussion of the audit
     scope and methodology and the review of the management control program.




                                         3
           Naval Facilities Engineering Command
           Environmental Remedial Action
           Contracts
           NAVFAC Atlantic Division improperly extended contracts
           N62470-93-D-3033 and N62470-97-D-5000, with a total not-to-exceed
           value of $325 million, for 5 years and 2 years, respectively. In addition,
           NAVFAC headquarters improperly exceeded the 5-year limit specified in
           the FAR by including a 7-year limit for four FY 1998 multi-award
           environmental RACs with a total not-to-exceed obligation value of
           $758 million. Neither the extensions nor the 7-year limit was supported
           by detailed written justification or cost/price analysis. This condition
           occurred because NAVFAC contracting officials made inaccurate
           interpretations of FAR competition requirements. In addition, NAVFAC
           headquarters had not developed a strategy to award environmental
           services procurements and did not coordinate the 1998 multiple award
           procurement with all its Component divisions. As a result, the Navy did
           not compete the requirements for available environmental services work
           after 5 years and DoD was not assured of the best value contractor to
           perform environmental remedial work.

Extension of Remedial Action Contracts
    The NAVFAC Atlantic Division improperly extended environmental remedial
    contracts N62470-93-D-3033 and N62470-97-D-5000.

    Contract N62470-93-D-3033. Contract N62470-93-D-3033, a 5-year,
    $75 million environmental services contract awarded by the NAVFAC Atlantic
    Division to the J.A. Jones Construction Services Company on July 1, 1994,
    initially included a 1-year base performance period plus four 1-year option
    periods. The contract provided for remedial action to clean up hazardous waste
    sites, predominately petroleum, oils, and lubricants located at Navy and
    Marine Corps east coast facilities in accordance with individual task orders. On
    March 10, 1999, NAVFAC issued modification P00022 extending the contract
    for an additional 5 years to June 30, 2004. As of September 30, 2001, contract
    N62470-93-D-3033 had 76 task orders valued at $48.7 million.

    Contract N62470-97-D-5000. Contract N62470-97-D-5000, a 5-year,
    $250 million environmental services contract awarded by NAVFAC Atlantic
    Division to the OHM Remediation Services Corporation on January 22, 1998,
    initially included a 1-year base performance period plus four 1-year option
    periods. The contract provided for cleanup of Navy and Marine Corps east
    coast hazardous waste sites in accordance with individual task orders. On
    June 21, 1999, NAVFAC issued modification P00004 extending the contract for
    an additional 2 years to January 21, 2005. As of September 30, 2001,
    N62470-97-D-5000 had 74 task orders valued at $101.8 million.


                                        4
Contract Extension Request. On November 3, 1998, the NAVFAC Atlantic
Division environmental project manager recommended extending the two
contracts to coincide with an expected NAVFAC-wide environmental remedial
multi-award procurement in FY 2005. The recommendation referenced
Marine Corps Air Station Cherry Point and Marine Corps Base Camp Lejeune
requests dated August 19, 1998, and October 15, 1998, respectively, to extend
contract N62470-93-D-3033. The points of contact for both Marine Corps
requests stated they prepared the requests in response to an inquiry from the
Atlantic Division environmental project office.

Contract Extension Justification. The extensions were not supported by a
written justification or cost/price analysis and did not comply with FAR
Subpart 6.3 and Competition in Contracting Act requirements. As a result,
NAVFAC did not provide full and open competition to prospective competitors
for available NAVFAC environmental services work.

       Rationale for Extensions. The contracting officer for contract
N62470-93-D-3033 stated the contract was extended to allow additional time to
reach the not-to-exceed obligation limit and the need to allow time to transition
future work to a consolidated re-procurement. The contracting officer for
contract N62470-97-D-5000 stated the extension was a business decision to align
the procurements for all Navy RACs.

       Initial Competitions. The initial competitions for contracts
N62470-93-D-3033 and N62470-97-D-5000 resulted in four technically qualified
offerors for each solicitation. Thus, there is a reasonable expectation of
multiple proposals if the requirements for follow-on contracts are competed.

        Navy Acquisition Procedures Supplement. According to NAVFAC
contracting personnel, Navy Acquisition Procedures Supplement 5217, “Special
Contracting Methods,” gives the contracting officer the authority to extend the
contracts past the 5-year time limit. Navy Acquisition Procedures Supplement
5217.204(e) states, “The CCO [Chief of the Contracting Office] may approve
contracts in excess of the limits specified in FAR 17.204(e), when not otherwise
restricted.” However, Navy Acquisition Procedures Supplement 5217.204(e)
does not clearly state the documentation requirements for contract periods in
excess of 5 years and that all approvals must be made prior to the solicitation.
Neither extension was supported by a detailed written justification nor approvals
by the chief of the contracting office. We believe Navy Acquisition Procedures
Supplement 5217.204(e) should be revised to fully document authorized
exceptions to FAR 17.204(e).

NAVFAC Corrective Actions. In response to our audit, NAVFAC took
specific action on contracts N62470-93-D-3033 and N62470-97-D-5000. On
January 14, 2002, NAVFAC notified the J.A. Jones Environmental Services
Company that the Government did not intend to exercise options to extend the
term of contract N62470-93-D-3033 beyond June 30, 2002. On January 15,
2002, NAVFAC notified the OHM Remediation Services Corporation that the
Government would not exercise options to extend the term of contract
N62470-97-D-5000 beyond January 21, 2003. NAVFAC Atlantic Division
plans to compete the work of both contracts in 2002 as part of a multi-award
                                    5
           procurement in conjunction with the NAVFAC Southern Division. The follow-
           on Atlantic Division RAC, while solicited in conjunction with the Southern
           Division RAC, will be awarded as a single award in the Atlantic Division’s area
           of responsibility.

Multiple Award Remedial Action Contracts
           NAVFAC headquarters improperly exceeded the 5-year limit specified by the
           FAR for multi-award indefinite delivery/indefinite quantity RACs
           N62467-98-D-0995, N62472-98-D-1808, N68711-98-D-5713, and
           N62474-98-D-2076 with a total not-to-exceed obligation value of $758 million.2
           In addition, multi-award contractors were not provided the ability to compete
           with each other for all available task orders.
           Acquisition Strategy for Multi-Award Contracts. The 1998 multiple award
           RACs were to provide environmental remediation services for the NAVFAC
           Pacific, Southwest, and Southern Divisions; and the NAVFAC Engineering
           Field Activity West. The awards were based on a single solicitation, multiple
           award, and best-value contracting method. The unsigned NAVFAC Acquisition
           Plan3 designated the contracts as cost-plus-award-fee with a base term of 1 year
           with 6 option years. The plan also designated award of one contract for each of
           four regions. A contractor could win an award in multiple regions.4 The plan
           made no mention of potential awardee competition for subsequent task orders
           within a region. NAVFAC contracting officials stated that each awardee would
           receive all task orders within the region awarded.

           Justification for Contract Length. NAVFAC P-68, “Contracting Manual,”
           March 1994, 17.204, “Special Contracting Methods,” supplements the Navy
           Acquisition Procedures Supplement. The contracting manual states:
                        NAVFAC Acquisition Proponent approval is required prior to
                        issuance of a solicitation if the term of a contract exceeds five years
                        (base year and four option periods). The request for approval shall
                        explain how the procurement's competitive history and/or significant
                        capital investment requirement indicates that a longer period of
                        performance is necessary to establish or maintain competition.

           NAVFAC headquarters personnel stated that since the Acquisition Proponent
           signed the source selection plan, which included the contract term, there was a
           formal approval of the change in term. However, neither the source selection
           plan nor the acquisition plan included discussion, as required by NAVFAC
           P-68, as to why a 7-year contract term was warranted or necessary to establish

2
    The initial not-to-exceed obligation limit was $250 million per contract, total $1 billion. NAVFAC
    later reduced not-to-exceed obligation amounts for two of the four contracts to $129 million each to
    comply with funding restrictions included in Section 8130 of the FY 2000 DoD Appropriations Act.
3
    NAVFAC could not locate a signed copy of the acquisition plan.
4
    One contractor, IT Corporation, won awards for both the NAVFAC Southwest and Pacific Divisions.

                                                      6
           or maintain competition. NAVFAC did not comply with NAVFAC P-68, FAR
           Part 6, and FAR 17.204(e) because it did not have written justification for
           exceeding the 5-year time limit for service contracts.

           NAVFAC Atlantic and Northern Division Contracts. The NAVFAC multi-
           award contracts did not consolidate RAC requirements across all NAVFAC
           Components. The NAVFAC Atlantic and Northern5 Divisions acted
           independently of NAVFAC headquarters and other NAVFAC divisions in
           solicitation of RACs. The unsigned NAVFAC 1998 multi-award acquisition
           plan noted that no justification existed to extend the four RACs past their 1999
           expiration. However, NAVFAC Atlantic Division and Northern Division
           environmental contracts, such as Atlantic Division RAC N62470-93-D-3033,
           which would also expire in 1999, were not included in the 1998 multi-award
           solicitation and not mentioned in the acquisition or source selection plans. In
           March 2000, independent of the multi-award procurement, the NAVFAC
           Northern Division separately awarded a 5-year RAC with a total not-to-exceed
           obligation value of $125 million.

           NAVFAC Acquisition Strategy for Environmental Programs. On
           September 28, 2001, NAVFAC headquarters issued an acquisition strategy for
           environmental programs. The goal of the strategy was to incorporate a variety
           of contract tools to meet program requirements while addressing legislative
           mandates. The strategy noted that each major NAVFAC Component should
           maintain access to at least one cost-reimbursement RAC performed by a large
           business while increasing fixed-priced contract mechanisms and encouraging
           greater small business participation. The strategy also noted the need to
           expedite task order closeout in existing and expiring contracts and continue
           in-house execution of environmental planning and compliance. The acquisition
           strategy did not address how NAVFAC headquarters would consolidate its
           acquisition support strategy for environmental contracts across its Components
           or discuss use of environmental services multi-award contracting. In addition,
           the strategy did not thoroughly assess current services acquisition structure,
           processes, and roles, elements that recent General Accounting Office reports6
           found to be crucial to reengineering DoD approaches to purchasing services.
           We believe that NAVFAC headquarters should develop a structured approach to
           contracting for environmental remediation services at all NAVFAC Components
           including establishing controls to ensure compliance with requirements of the
           FAR and the Competition in Contracting Act.

           Task Order Competition. The NAVFAC multi-award acquisition plan did not
           achieve the most competitive result, because it did not allow the multi-award
           contractors the ability to compete for individual task orders within a region.
           FAR Subpart 16.5 implements the Federal Acquisition Streamlining Act
           regarding multiple award contracts. FAR 16.505(b) states, “The contracting
           officer must provide each awardee a fair opportunity to be considered for each

5
    As part of a March 29, 2001, NAVFAC reorganization, the Northern Division became Engineering
    Field Activity Northeast, a component of the Atlantic Division.
6
    The Appendix A prior coverage section lists the two General Accounting Office reports.

                                                     7
order exceeding $2,500 issued under multiple delivery-order contracts or
multiple task-order contracts,” unless certain exceptions apply. These
exceptions are:

   •   the agency need for the supplies or services is so urgent that providing a
       fair opportunity would result in unacceptable delays;

   •   only one awardee is capable of providing the supplies or services
       required at the level of quality required because the supplies or services
       ordered are unique or highly specialized;

   •   the order must be issued on a sole-source basis in the interest of
       economy and efficiency as a logical follow-on to an order already issued
       under the contract, provided that all awardees were given a fair
       opportunity to be considered for the original order; or

   •   it is necessary to place an order to satisfy a minimum guarantee.

        NAVFAC Multi-Award Acquisition. While the NAVFAC multi-award
acquisition was within general FAR requirements, the selection of one
contractor per region did not meet the intent of FAR Part 16.5 or the Federal
Acquisition Streamlining Act since the acquisition strategy did not discuss or
document any of the four exceptions to competing multiple task order contracts.
At least three contractor offerors per region submitted technically acceptable
proposals to the multiple award solicitation. Contractor interest would have
justified alternative acquisition strategies supportive of FAR Subpart 16.5
including awarding multiple contracts within each region or on a nationwide
basis, while allowing prospective contractors the option to select regions to
compete for individual task orders.

        National Defense Authorization Act for Fiscal Year 2002. Enactment
of the National Defense Authorization Act for Fiscal Year 2002, Public
Law 107-107, on December 28, 2001, requires DoD to increase competition on
multiple award task order contracts. Section 803, “Competition Requirement
for Purchase of Services Pursuant to Multiple Award Contracts,” requires that
no later than 180 days after the date of the enactment of the Act, the Secretary
of Defense promulgate in the DoD Supplement to the FAR, regulations
requiring competition in the individual task order purchases of services of
greater than $100,000 made by DoD pursuant to multiple award contracts. The
Act requires contracting officers to apply one of the four exceptions noted above
before waiving competition.

Navy Procurement Management Review. The Office of the Assistant
Secretary of the Navy (Research, Development, and Acquisition) (Acquisition
and Business Management) performs periodic reviews of procurement
performance management at Navy commands. The last such review of
NAVFAC was reported on December 1, 1998. The report noted that NAVFAC
was a highly decentralized organization that relied heavily on its Component
divisions to know local customers, requirements, expectations, and levels of
satisfaction. The 1998 report also noted that NAVFAC did not have a
systematic approach to understanding the needs and requirements of customers

                                    8
    and found little evidence of NAVFAC headquarters measuring key acquisition
    processes such as acquisition plans, justifications and approvals, and business
    clearances. The report concluded that NAVFAC acquisition processes appeared
    to be accomplished intuitively rather than through analysis of workforce usage
    or contract workload metrics and trend data. The Assistant Secretary’s office
    has scheduled the next review of NAVFAC procurement practices to commence
    in January 2004.

    In response to the 1998 procurement management review, NAVFAC has
    performed annual internal reviews of procurement functions under the
    NAVFAC Performance Management and Assistance Program. The FY 2001
    NAVFAC review summarized the results of 30 headquarters assessment visits to
    NAVFAC Components, including surveys of NAVFAC customers and
    procurement contracting staff. Areas for procurement contracting process
    improvement included standardizing business processes, business decision
    documentation, facilities support contracting, and pre- and post-negotiation
    memorandum documentation. We believe that the next procurement
    management review of NAVFAC performed by the Office of the Assistant
    Secretary of the Navy (Research, Development, and Acquisition) should
    examine compliance with 5-year service contract requirements and competition
    on individual task order purchases of services made pursuant to multiple-award
    contracts.

Summary
    The NAVFAC Atlantic Division improperly extended two environmental
    remedial contracts with a combined value of $325 million. In response to our
    audit, NAVFAC took specific corrective action on the two contracts. NAVFAC
    headquarters improperly exceeded regulatory 5-year limits by including a 7-year
    limit for four FY 1998 multi-award RACs with a total not-to-exceed obligation
    value of $758 million. The RAC multi-award did not achieve the most
    competitive result, because NAVFAC did not coordinate the effort across all its
    divisions and did not allow winning contractors the ability to compete against
    each other for individual task orders within a region.

Navy Comments on the Finding and Audit Response
    A summary of Navy comments on the finding and the audit response is in
    Appendix D.

Recommendations, Management Comments, and Audit
  Response
    Revised Recommendations. As a result of Navy comments we revised
    Recommendations 2.b. and 2.c.



                                       9
      1. We recommend that the Assistant Secretary of the Navy
(Research, Development, and Acquisition):

               a. Revise Navy Acquisition Procedures Supplement 5217.204
to clearly state the documentation requirements for contract periods in
excess of 5 years and that all approvals must be made prior to solicitation.

              b. Examine, as part of the next procurement management
review of Naval Facilities Engineering Command, compliance with 5-year
service contract requirements and competition on individual task order
purchases of services made pursuant to multiple award contracts.

Navy Comments. The Office of the Assistant Secretary of the Navy (Research,
Development, and Acquisition) concurred in principle with Recommendations
1.a. and 1.b. The Navy stated that NAVFAC would revise its Naval Facilities
Engineering Command Acquisition Supplement (formerly the NAVFAC
Contracting Manual P-68) to clearly state the documentation requirements for
service contract periods in excess of 5 years and that all approvals must be made
prior to solicitation. The Navy believed that it would be more effective for the
NAVFAC command-level procurement performance management assessment
program, rather than a Secretariat-level assessment program, to verify
NAVFAC compliance with 5-year service contract requirements and
competition on individual task order purchases. The Navy noted that it would
direct NAVFAC to carry out the assessment.

Audit Response. The Navy comments were partially responsive to the intent of
Recommendation 1. The Navy did not comment specifically on
Recommendation 1.a. to revise the Navy Acquisition Procedures Supplement
5217.204. While we agree with the proposed NAVFAC action to implement
policy to clearly state documentation requirements for service contract periods
in excess of 5 years, we believe the issue to be applicable on a Navy-wide basis
and not limited to a single command. We therefore request additional Navy
comments to the final report regarding implementation of Recommendation 1.a.
on a Navy-wide basis.

A NAVFAC self-assessment, although an improvement, would not be more
effective than an independent verification by an external organization of
NAVFAC compliance with 5-year service contract requirements and
competition on individual task orders. We therefore request additional Navy
comments to the final report regarding methods to assure independent
implementation of Recommendation 1.b.

      2. We recommend that the Commander, Naval Facilities
Engineering Command:

              a. Develop a structured approach to contracting for
environmental remediation services at all Naval Facilities Engineering
Command Component divisions and establish controls to ensure compliance
with requirements of the Federal Acquisition Regulation, the Competition in
Contracting Act, and Section 803 of the National Defense Authorization Act
for Fiscal Year 2002.

                                   10
             b. Develop a multi-award contracting plan for future
procurements that includes the ability of multi-award contractors to
compete for available task orders in accordance with Section 803 of the
National Defense Authorization Act for Fiscal Year 2002 and requires re-
competition of the multi-award contracts every 5 years unless written
documentation and approval is obtained for a longer period of
performance.

               c. Review and determine if adequate justification exists for a
longer period of performance beyond 5 years under multi-award
environmental remedial contracts N62467-98-D-0995, N62472-98-D-1808,
N68711-98-D-5713, and N62474-98-D-2076, and if so, prepare formal
written determination and approval. If adequate justification does not
exist, the contract(s) shall be re-competed as soon as practicable.
Navy Comments. The Office of the Assistant Secretary of the Navy (Research,
Development, and Acquisition) concurred in principle with Recommendation 2.
The Navy stated that NAVFAC headquarters would meet with its engineering
field activities in July 2002 to develop an environmental program acquisition
strategy to establish a more effective approach to contracting for environmental
remediation services and ensure compliance with applicable laws and
regulations. The Navy suggested a wording addition to Recommendation 2.b.
to require written documentation and approvals for periods of performance of
greater than 5 years. The Navy also suggested a wording change to
Recommendation 2.c. to require determination of adequate justification for a
longer period of performance beyond 5 years for the four multi-award
environmental remedial contracts. The Navy believed that NAVFAC had not
addressed justification requirements required in Naval Facilities Engineering
Command Acquisition Supplement 17.204. However, the Navy believed that
the NAVFAC environmental remedial contracts reviewed were predominantly
construction rather than service contracts and thus were an exception from the
5-year requirements in FAR 17.200.

Audit Response. The Navy comments were responsive. We revised
Recommendations 2.b. and 2.c. based on the Navy comments. We do not agree
with the Navy characterization of the NAVFAC environmental RACs we
reviewed as predominantly construction contracts or that the contracts were an
exception to the 5-year FAR and statutory requirements. For further discussion
of Navy comments and our response on this issue see Appendix D.




                                   11
Appendix A. Scope and Methodology

Scope
    The audit examined NAVFAC documents prepared between July 1994 and
    January 2002 to evaluate the procurement, performance, and oversight of seven
    NAVFAC service contracts noted in, or related to, the Defense Hotline
    allegation. The seven contracts reviewed had a total not-to-exceed value of
    $1.333 billion. We also reviewed applicable laws and regulations that address
    the award, modification, and extension of environmental services contracts,
    interviewed NAVFAC contracting officials responsible for awarding and
    administering the contracts reviewed; and reviewed ethics compliance for Navy
    personnel and the management control program as it applied to audit objectives.
    We performed the review at NAVFAC headquarters and four NAVFAC
    contracting office field locations. We also reviewed the performance of two
    NAVFAC environmental services contracts at two Marine Corps bases.

Methodology
    For contracts N62470-93-D-3033 and N62470-97-D-5000, we conducted site
    visits to NAVFAC headquarters and the NAVFAC Atlantic Division to
    determine why extensions of the contracts were made. We also conducted site
    visits to Resident Officer in Charge of Construction Offices and Marine Corps
    Environmental Affairs Division Offices at Marine Corps Base, Camp Lejeune,
    North Carolina, and Marine Corps Air Station, Cherry Point, North Carolina,
    to interview environmental personnel to determine their role in the extension of
    the contracts. For the FY 1998 single solicitation multi-award RACs
    N62467-98-D-0995, N62472-98-D-1808, N68711-98-D-5713, and
    N62474-98-D-2076, we identified, gathered, and analyzed existing
    requirements, policy, and guidance related to the contracts by conducting site
    visits or contacting NAVFAC headquarters and Southern, Pacific, and
    Southwest Divisions to determine why the multi-award contracts were issued for
    7 years and why the resulting task orders were not competed among the multi-
    award contracts. For contract N68711-00-D-0701, we analyzed source selection
    documentation at NAVFAC headquarters and the NAVFAC Southwest Division
    to determine if specific criteria and rationale were used by NAVFAC to replace
    an initial source selection board. We evaluated management controls over the
    DoD environmental contracting program at the locations visited. Our review
    included DoD and Navy policy and procedures for program oversight and
    quality assurance. We also assessed compliance with governing guidance over
    service contracting.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Contract Management high-risk area.




                                       12
    Use of Computer-Processed Data. We relied on computer-processed data
    provided by the Navy. We used chronological contract spreadsheet and
    cumulative cost data extracted from NAVFAC databases. We crosschecked the
    information from two different data sources and verified the accuracy of
    contract data during site visits and interviews with key NAVFAC personnel.
    We did not find errors that would preclude use of the computer-processed data
    to meet the audit objectives or change the conclusions in this report.

    Audit Dates and Standards. We performed this audit from September 2001
    through March 2002 in accordance with generally accepted government auditing
    standards. Accordingly, we included tests of management controls considered
    necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of NAVFAC management controls relating to environmental services
    contracting. Specifically, we reviewed NAVFAC management controls over
    procurement, performance, and oversight of environmental services contracts.
    We reviewed management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for NAVFAC as defined by DoD Instruction 5010.40.
    NAVFAC had not established management controls for documenting and
    justifying contract extensions past regulatory limits, and for competing resulting
    task orders from multi-award contracts. Recommendation 1., if implemented,
    will improve NAVFAC procedures for contract extensions and competing task
    orders. A copy of this report will be provided to the senior official responsible
    for management controls at NAVFAC headquarters.

    Adequacy of Management’s Self-Evaluation. NAVFAC did not identify
    environmental services contracting as an assessable unit and, therefore, did not
    identify or report the material management control weaknesses identified by this
    audit.




                                        13
Prior Coverage
     The General Accounting Office and the Inspector General of the Department of
     Defense issued four reports that discussed multiple award contracts or use of
     strategic planning for services. There was no prior audit coverage of NAVFAC
     environmental services contracting in the last 5 years.


General Accounting Office
     GAO Report No. GAO-02-469T, “Defense Acquisitions: DoD Faces Challenges
     in Implementing Best Practices,” February 27, 2002
     GAO Report No. GAO-02-230, “Best Practices: Taking a Strategic Approach
     Could Improve DoD’s Acquisition of Services,” January 18, 2002


Inspector General of the Department of Defense (IG DoD)
     IG DoD Report No. D-2001-189, “Multiple Award Contracts for Services,”
     September 30, 2001

     IG DoD Report No. 99-116, “DoD Use of Multiple Award Task Order
     Contracts,” April 2, 1999




                                       14
Appendix B. Summary of Allegations and Audit
            Results
   The results of review of the allegations to the Defense Hotline claiming
   NAVFAC favoritism in awarding environmental services contracts are discussed
   below.

   Allegation 1. NAVFAC improperly extended contract N62470-93-D-3033.

   Audit Results. The allegation was substantiated. The NAVFAC Atlantic
   Division extended contract N62470-93-D-3033 as well as contract
   N62470-97-D-5000 beyond the 5-year limit specified by the FAR. The
   extensions did not comply with FAR Subpart 6.3 and FAR 17.204(e). As a
   result, NAVFAC did not provide full and open competition to prospective
   competitors for available NAVFAC environmental services work. In response
   to our audit, NAVFAC took specific corrective action on contracts
   N62470-93-D-3033 and N62470-97-D-5000 (see Finding).

   Allegation 2. NAVFAC officials showed favoritism toward one specified
   support services contractor.

   Audit Results. The allegation was not substantiated. Our review found no
   evidence to support the allegation of NAVFAC favoritism and special treatment
   toward the specified contractor.

   Allegation 3. NAVFAC inappropriately awarded (an unspecified) $250 million
   contract to a joint venture comprised of J.A. Jones Incorporated and CH2M-Hill
   Incorporated (Jones/Hill).

   Audit Results. The allegation was not substantiated. The contract in question
   was NAVFAC Southwest Division facilities management contract
   N68711-00-D-0701. While some contract file documentation was not
   maintained as required by the FAR, we did not find any evidence to support that
   the final source selection decision was inappropriate or that the award was
   improper.

           Contract Requirement. Contract N68711-00-D-0701 provides for base
   support functions for Navy installations located in California, Nevada, Arizona,
   and New Mexico. Base support tasks include providing facilities and public
   works related maintenance, operations, and repair and construction services
   including incidental planning and engineering on an as needed basis. The prime
   contractor receives a sliding management fee to subcontract the work
   requirements to small businesses. The contracting officer stated that the goal
   was for the prime contractor to subcontract 100 percent of the task orders. The
   annual firm-fixed-price/indefinite-quantity contract maximum dollar amount is
   not-to-exceed $50 million, with a total base year and four 1-year options not-to-
   exceed amount of $250 million.


                                      15
        Procurement Competition. Jones/Hill and Company A competed for
the award. An initial source selection board located at the NAVFAC
Engineering Field Activity West Oakland, California, began review of contract
proposals on May 28, 1999. On April 20, 2000, the source selection authority,
the NAVFAC Southwest Division Commander, dissolved the source selection
board after rejecting a source selection board recommendation to select
Company A. The source selection authority directed a second source selection
board be convened at NAVFAC Southwest Division headquarters in San Diego,
California, and that all source selection analyses and documentation be
transferred to the second board. We found no documentation of specific
NAVFAC source selection authority rationale, justification, or explanation
relating to replacement of the initial source selection board and convening of a
second board. On July 6, 2000, the second source selection board
recommended Jones/Hill for contract award. The second board’s
recommendation noted that the Jones/Hill proposed small business contracting
plan was superior. This conclusion was supported by three technical specialist
analyses. On July 17, 2000, the source selection authority accepted the second
board’s recommendation without comment. On August 4, 2000, the Southwest
Division awarded contract N68711-00-D-0701 to Jones/Hill.

        Source Selection Criteria. The source selection authority
documentation relating to replacement of the initial source selection board and
convening of a second board did not fulfill the requirements of FAR 15.308,
“Source Selection Decision,” and the NAVFAC P-68 contracting manual.
FAR 15.308 requires that source selection decisions be documented, and that
documentation include the rationale for any business judgments and tradeoffs
made or relied on by the source selection authority, including benefits associated
with additional costs. The NAVFAC P-68 contracting manual notes that the
source selection authority is responsible for ensuring that all aspects of the
selection process are conducted properly, and that input from the source
selection board, cost and/or price evaluation personnel, technical evaluation
board, and the source selection authority personal determinations of the
successful offeror should be documented in the source selection authority
decision.

        Functional Reviews of Offeror Small Business Plans. The primary
issue in the differing evaluation conclusions between the two boards was rating
the competitors’ small business plans. During the term of the two source
selection boards, three analyses of the competitors’ small business contracting
plans were performed. The Southwest Division small business specialist
completed the first analysis on October 22, 1999. The Small Business
Administration conducted a second analysis with reports issued on March 7,
2000, for Company A, and March 29, 2000, for Jones/Hill. The NAVFAC
headquarters small business representative conducted a third analysis, which was
not maintained in the contract files. All three analyses agreed that the
Jones/Hill small business plan was superior.




                                    16
Appendix C. Naval Facilities Engineering
            Command Environmental Services
            Contracts
   In FY 2001, NAVFAC budgeted $480.96 million for RAC and CLEAN
   contract obligations. Table C-1 shows contract obligations by NAVFAC
   division and between RAC and CLEAN contracts. NAVFAC Southwest
   Division has the bulk of the total obligations for both RAC and CLEAN
   contracts, since this division also consists of Engineering Field Activity West,
   and thus is responsible for nearly all the naval facilities on the west coast. Also
   prominent is NAVFAC Atlantic whose purview covers all naval facilities on the
   east coast north of Charleston, South Carolina.



       Table C-1. NAVFAC FY 2001 Environmental Contract Obligations

                                                  Comprehensive Long-Term
                        Remedial Action           Environmental Action, Navy
     NAVFAC             Contracts (RACs)                   (CLEAN)              Totals
      Division             (millions)                      (millions)          (millions)
  Atlantic                   $  52.98                        $ 38.49           $ 91.47
  South                         37.07                           28.71             65.78
  Southwest                    172.28                           63.44            235.72
  Pacific                       47.22                           20.57             67.79
  NAVFACCO*                     20.20                               0             20.20
  Totals                     $ 329.75                        $ 151.21          $ 480.96

  * Naval Facilities Contracting Office, Port Hueneme, California




   As shown in Table C-2, NAVFAC has 20 active RAC and 15 active CLEAN
   contracts with a total not-to-exceed obligation value of $6.345 billion. The 20
   active RACs totaled $3.6 billion in not-to-exceed contract value. We reviewed
   six RACs valued at $1.08 billion.




                                             17
           Table C-2. NAVFAC Environmental Services Contracts
                       Contract        NAVFAC                                     NTE1 Value
                    Solicitation No.   Division       Contractor        Award Date (millions)
RACs            N62472-94-D-0398        Atlantic   Foster Wheeler        Mar 1995    $   250.0
                N62472-94-D-0032        Atlantic   Foster Wheeler        Mar 2000        125.0
                N62470-93-D-3032        Atlantic  OHM Remediation        Aug 1993        250.0
                N62470-93-D-30332       Atlantic     J.A. Jones          July 1994        75.0
                N62470-97-D-50002       Atlantic      IT/OHM              Jan 1998       250.0
                N62467-93-D-0936         South     Bechtel Env'l.        Mar 1994        300.0
                N62467-93-D-1106         South    Morrison Knudsen       Mar 1994        300.0
                N62467-98-D-09952        South       CH2M Hill           June 1998       129.0
                N44255-93-D-4050       Southwest Ebasco (F. Wheeler)     June 1993        89.5
                N44255-95-D-6030       Southwest   Foster Wheeler        Nov 1995        290.5
                N68711-93-D-1459       Southwest OHM Remediation         Feb 1994        310.0
                N68711-98-D-57132      Southwest   Foster Wheeler        June 1998       250.0
                N62474-93-D-2151       Southwest      IT Corp.           Feb 1994        250.0
                N62474-98-D-20762      Southwest      IT Corp.           June 1998       250.0
                N62742-93-D-0610         Pacific  OHM Remediation         Jan 1994       250.0
                N62742-98-D-18082        Pacific      IT Corp.           June 1998       129.0
                N47408-95-D-0730       FACCO3 Battelle Mem. Inst.        Sep 1995         50.0
                N47408-92-D-3059        FACCO      Foster Wheeler         Jan 1992        25.0
                N47408-92-D-3045        FACCO         IT Corp.           July 1992        15.0
                N47408-92-D-3056        FACCO         IT Corp.           Mar 1992         10.0
CLEAN Contracts N62472-90-D-1298        Atlantic    Tetra Tech NUS       Mar 1991        160.0
                N62472-92-D-1296        Atlantic   EA Eng.& Science      June 1991       100.0
                N62470-89-D-4814        Atlantic     Baker/TSA Inc.      Feb 1991        100.0
                N62470-95-R-6007        Atlantic       CH2M Hill          Jan 1996       125.0
                N62467-89-D-0317         South       HLA/ESE, Inc.       Sep 1990        175.0
                N62467-89-D-0318         South     Ensafe/ALN&HOS        Dec 1990        160.0
                N62467-94-D-0888         South      Tetra Tech NUS       Mar 1995        250.0
                N68711-89-D-9296       Southwest   Jacobs Engineering    May 1989        262.0
                N68711-92-D-4670       Southwest    Bechtel National      Apr1993        260.0
                N68711-96-D-7526       Southwest      Bechtel Env'l      Oct 1997        130.0
                N62474-88-D-5086       Southwest       Tetra Tech        June 1989       260.0
                N62474-94-D-7609       Southwest       Tetra Tech        Apr 1995        260.0
                N62474-89-D-9295       Southwest    URS Consultants      June 1989       166.0
                N62742-90-D-0019        Pacific       Ogden Env'l        Feb 1991        210.0
                N62742-94-D-0048        Pacific        Earth Tech        Aug 1995        129.0
    Total                                                                            $ 6,345.0
                1
                  Not to Exceed
                2
                  Contract selected for IG DoD review
                3
                  Naval Facilities Contracting Office, Port Hueneme, California




                                          18
Appendix D. Navy Comments on the Finding
            and Audit Response
   Navy Comments on Multiple Award Remedial Action Contracts. The Navy
   disagreed with the finding and discussion statements that NAVFAC headquarters
   improperly exceeded the 5-year limit specified in the FAR by including a 7-year
   limit for four FY 1998 multi-award environmental RACs and did not have
   written justification for exceeding the 5-year time limit for service contracts.
   The Navy believed that the NAVFAC RACs are predominantly construction
   contracts and thus were exempt from the 5-year requirements in FAR 17.200
   and subject to the Davis Bacon Act and FAR 2.101 definitions of construction.
   The Navy stated that no written justification or approval of the 7-year term was
   necessary as the multi-award solicitation provided for full and open competition.

   Audit Response. We do not agree with the Navy position that the NAVFAC
   environmental RACs are exempt from 5-year requirements. All seven
   NAVFAC contracts reviewed in this report are service contracts, and subject to
   FAR and statutory requirements. NAVFAC corrective actions relating to RACs
   N62470-93-D-3033 and N62470-97-D-5000 clearly indicated that the contracts
   were subject to FAR 17.204(e) and were service contracts. Also, the multi-
   award contracts included Service Contract Act clauses and did not include
   military construction funding. While the multi-award solicitation was for a
   7-year term, the award was initially synopsized with a 5-year term. As noted in
   the report, reasoning and justification for the change to 7 years were not
   documented or approved.

   Navy Comments on Task Order Competition. The Navy disagreed with the
   finding and discussion statements regarding the NAVFAC multi-award
   acquisition not meeting the intent of FAR Part 16.5 since the acquisition strategy
   did not provide contractors the ability to compete with each other for all
   available task orders. The Navy stated that FAR Part 16.504 requires the
   contracting officer to give preference to making multiple awards, but precludes
   a multiple award approach if only one contractor is capable of providing
   performance; task orders are so integrally related that only one contractor can
   perform the work; the cost of additional contract administration outweighs
   benefits; or more favorable terms or conditions can be provided through a single
   award. The Navy also stated that the contracting officer selected a cost-plus-
   award-fee contract type for the multi-award contracts because of significant
   contract performance uncertainties.

   The Navy stated that the NAVFAC single solicitation approach was never
   intended as a multiple award for competing task orders under the contracts and
   that the multiple award cost-reimbursement contract type and unknowns
   associated with executing remedial actions negated the value of competing the
   task orders. In addition, the Navy stated that use of multiple contractors
   performing different phases of the four-phase remediation action process would

                                       19
jeopardize regulatory coordination and increase overhead and administration
costs. The Navy stated the four remedial phases are: remedial investigations,
feasibility studies, records of decisions, and actual remediation.

Audit Response. We noted that the NAVFAC multiple award acquisition
strategy was not intended to result in task order competition of the four
contracts. We also noted that three technically acceptable contract offerors per
region could have performed the requirement. As the FAR does not preclude
application of cost-reimbursable type contracts for multi-award task orders, we
disagree with the Navy conclusion that cost-reimbursement type contracts will
negate the value of competing task orders.

Present Navy practices contradict the Navy’s conclusion that the same
contractor should perform each of the four remedial phases. The Navy
performs remedial investigations, feasibility studies, and records of decisions
through a separate CLEAN contract with RACs usually performing actual
remediation. As noted in the report, the Navy bars CLEAN contractors from
competing for RACs. As part of this audit we performed an on-site review of
NAVFAC Atlantic Division implementation of RACs at Marine Corps Base,
Camp Lejeune, North Carolina, and Marine Corps Air Station, Cherry Point,
North Carolina. We concluded that multiple RAC contractors were already
performing different remediation tasks under separate cost-reimbursement
contracts at the same work locations. The use of multiple RAC contractors did
not adversely affect on-sight oversight performed by the NAVFAC Resident
Officer in Charge of Construction and the Marine Corps base Environmental
Affairs Division.

Based on the facts presented above, we do not believe that the NAVFAC
multiple awards met any of the exemptions noted in FAR 16.504. We believe
that application and proper documentation of the four exceptions to task order
competition noted at FAR 16.505, and in the National Defense Authorization
Act for Fiscal Year 2002, will safeguard against potential RAC impracticalities
and provide the contracting officer the ability to identify potential fixed-price
task order opportunities to enhance future competition.

Navy Comments on CLEAN Contracts. The Navy commented on the report
statement that NAVFAC CLEAN contracts are designated as architect-engineer
services and are not subject to 5-year limits for service contracts. The Navy
equated the RAC contracts as analogous to the CLEAN contracts as being
exempted from 5-year limits.

Audit Response. While we agree that architect-engineering contracts are
exempt from the 5-year requirement, we did not review any NAVFAC CLEAN
contract and make no opinion as to whether the NAVFAC characterization of
CLEAN contracts as architect-engineering contracts is accurate. We consider
the seven RAC contracts reviewed as being subject to 5-year limits and not
analogous to CLEAN contracts.




                                    20
Navy Comments on NAVFAC Corrective Actions. The Navy noted that the
follow-on Atlantic Division RAC, while solicited in conjunction with the
Southern Division RAC, will be awarded as a single award in the Atlantic
Division’s area of responsibility after the contracting officer determined that
multiple awards would not be in the best interests of the Government pursuant to
FAR 16.504(c).

Audit Response. We revised the discussion to note the Atlantic Division RAC
single award. We did not review the Atlantic Division RAC solicitation or the
contracting officer determination. Thus, we make no opinion whether the
contracting officer decision will achieve the most competitive result.




                                   21
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Deputy Under Secretary of Defense (Acquisition Reform)
Deputy Under Secretary of Defense (Installations and Environment)
Director, Defense Procurement

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Installations and Environment)
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Facilities Engineering Command

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget




                                          22
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         23
Department of the Navy
Comments




                     25
26
     Final Report
      Reference




     Page 6




27
Final Report
 Reference




Page 1




               28
29
30
31
32
     Final Report
      Reference




     Revised




     Revised




33
Final Report
 Reference




Page 19
Revised


Revised




               34
     Final Report
      Reference




     Page 5-6
     Revised




35
36
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing of the Department of Defense prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

Garold E. Stephenson
William C. Gallagher
Benjamin A. Mehlman
Pedro J. Toscano
Robert M. Sacks
Scott G. Stadtmueller
Takia A. Matthews
Karen A. Ulatowski
